      Report No. D-2011-019    November 24, 2010




Live Fire Testing of Light Tactical Wheeled Vehicles
     was Effective for the Portions Completed
Additional Copies
To obtain additional copies of the report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ARL                           U.S. Army Research Laboratory
ATEC                          U.S. Army Test and Evaluation Command
C-4                           Composition-4
DOT&E                         Director, Operational Test and Evaluation
FSP                           Fragment-Simulating Projectile
FUSL                          Full-Up System Level
HMMWV                         High Mobility Multi-Purpose Wheeled Vehicle
IED                           Improvised Explosive Device
IG                            Inspector General
LFT&E                         Live Fire Test and Evaluation
TNT                           Trinitrotoluene
                                      INSPECTOR GENERAL 

                                     DEPARTMENT OF DEFENSE 

                                       400 ARMY NAVY DRIVE 

                                  ARLINGTON, VIRGINIA 22202-4704 





                                                                             November 24,2010

MEMORANDUM FOR DIRECTOR, OPERATIONAL TEST AND EVALUATION
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Live Fire Testing of Light Tactical Wheeled Vehicles was Effective for the Portions
         Completed (Report No. D-2011-019)

We are providing this report for your information and use. We determined that the Army's live
fire testing of the up-armored High Mobility Multi-Purpose Wheeled Vehicle was effective for
the portions completed. We also found that DOD oversight ofthe live fire test and evaluation
was effective for the p0l1ions of the oversight process completed. We are making no
recommendations and do not require a written response. Therefore, we are publishing this report
in final form.

We appreciate courtesies extended to the staff. Please direct questions to me at (703) 604-9201
(DSN 664-9201).




                                      ~5~~  Assistant Inspector General
                                            Acquisition and Contract Management




                                               -   ~
 
Report No. D-2011-019 (Project No. D2009-D000AE-0007.001)                      November 24, 2010


               Results in Brief: Live Fire Testing of Light
               Tactical Wheeled Vehicles was Effective
               for the Portions Completed
What We Did                                          Specifically, the Director, Operational Test
                                                     and Evaluation, placed the up-armored
We determined whether the Army
                                                     HMMWV on the Office of the Secretary of
effectively planned, executed, and evaluated
                                                     Defense Test and Evaluation Oversight List
High Mobility Multi-Purpose Wheeled
                                                     in 2006 for live fire oversight and has
Vehicle (HMMWV) live fire testing and
                                                     reviewed, as required, the Army’s
whether DOD exercised adequate live fire
                                                     up-armored HMMWV live fire test planning
test and evaluation oversight of the Army’s
                                                     documents. The Director, Live Fire Test
HMMWV Program. This report is the
                                                     and Evaluation, stated that the Director,
second in a series of reports on the Army’s
                                                     Operational Test and Evaluation, will
efforts to develop, test, and acquire armor
                                                     publish a HMMWV live fire test and
solutions for light tactical wheeled vehicles.
                                                     evaluation report by the end of 2010.
What We Found                                        What We Recommend
The U.S. Army Test and Evaluation
                                                     The report contains no recommendations.
Command’s (ATEC) live fire testing of the
up-armored HMMWV was effective for the               Management Comments
portions completed. Specifically, ATEC               We do not require a written response to this
planned a live fire test strategy for the            report.
HMMWV Program that identified required
documents needed to determine system and
crew survivability. ATEC provided the
                                                           M1151-Model HMMWV With 

required live fire planning documents to the
                                                              Fragmentation Kit #7 

Office of the Director, Operational Test and
Evaluation, for approval and ATEC
executed tests in accordance with the
approved live fire test plans. ATEC has not
yet completed the up-armored HMMWV
live fire test and evaluation report but will
provide it, upon completion, for the
Director, Operational Test and Evaluation’s
evaluation of the up-armored HMMWV live
fire test and evaluation.

The Office of the Director, Operational Test
and Evaluation’s live fire test and evaluation
oversight of the Army’s up-armored
HMMWV was effective for the portions of              Source: http://www.army.mil
the oversight process completed.



                                                 i
 
Table of Contents

Introduction

       Audit Objectives                                                       1

       Background                                                             1    


Results                                                                       2

       Planning and Execution of Up-Armored HMMWV Live Fire 

         Test and Evaluation was Effective for the Portions Completed         2

       Effective Oversight by the Director, Operational Test and Evaluation   3



Appendix

       Scope and Methodology                                                  5

              Prior Coverage                                                  6

 
Introduction
Audit Objectives
Our objectives were to determine whether the Army effectively planned, executed, and evaluated
High Mobility Multi-Purpose Wheeled Vehicle (HMMWV) live fire testing and whether DOD
exercised adequate live fire test and evaluation (LFT&E) oversight of the Army’s HMMWV
Program. See the appendix for a discussion on scope and methodology and prior coverage
related to the audit objectives.

Background
This is the second in a series of reports on the Army’s efforts to develop, test, and acquire armor
solutions for light tactical wheeled vehicles. The first report in the series, DOD Inspector
General (IG) Report No. D-2010-039, “Recapitalization and Acquisition of Light Tactical
Wheeled Vehicles,” January 29, 2010, addressed the Army’s efforts to develop and acquire the
Risk Reduction Vehicle, or XM1166, and the Next Generation Expanded Capacity Vehicle, or
ECV2. We initiated these audits as a result of information gathered while conducting the audit
that led to DOD IG Report No. D-2009-030, “Marine Corps Implementation of the Urgent
Universal Needs Process for Mine Resistant Ambush Protected Vehicles,” December 8, 2008.
Specifically, we were presented with information that led us to question the survivability testing
of the HMMWV against mines and improvised explosive devices (IEDs).

Live Fire Test and Evaluation
LFT&E is a test process to evaluate the vulnerability and lethality of a conventional weapon or a
conventional weapon system. LFT&E provides insights into a weapon system’s ability to
continue to operate or fight after being hit by enemy threat systems. Live fire testing provides a
way to examine the damage inflicted on materiel and personnel and an opportunity to assess the
effects of complex environments that crews are likely to encounter in combat. Conducting live
fire tests is very complex, and many factors have to be considered in the LFT&E of tactical
wheeled vehicles. Those factors include, but are not limited to: the type of munition used,
standoff distance of the vehicle to the explosive, projectile orientation angle, shotlines, the size
of the fragment-simulating projectile (FSP),1 where to fire FSPs at the vehicle, soil conditions,
whether to conduct a test that would cause catastrophic or significant damage to the vehicle, and
differences between the individual vehicles.

Test Methodology Concerns
During the audits of the “Marine Corps Implementation of the Urgent Universal Needs Process
for Mine Resistant Ambush Protected Vehicles” and “Recapitalization and Acquisition of Light
Tactical Wheeled Vehicles,” we interviewed vehicle survivability subject matter experts who
expressed concerns about the U.S. Army Test and Evaluation Command’s (ATEC’s) live fire
testing methods.



1
    An FSP is a specific fragment simulator type based on a standardized cylindrical projectile with a chiseled nose. It
    is designed to be fired from a gun to simplify armor testing.

                                                            1

Specifically, the subject matter experts were concerned that ATEC personnel:
    used FSPs to test armored vehicles that did not accurately represent fragments from IEDs
       detonated close to a vehicle,
    incorrectly used composition-4 (C-4) as an explosive equivalent to trinitrotoluene (TNT),
       and
    performed IED tests to evaluate vehicle armor protection in soil that did not represent the
       soil found in theater operations.

Results
To address the vehicle survivability subject matter experts’ concerns about ATEC’s live fire
testing methods, we reviewed ATEC’s LFT&E planning and execution, use of FSPs, use of C-4
in lieu of TNT, and whether the soil used in live fire testing was representative of the soil found
in theater operations. We also evaluated Director, Operational Test and Evaluation’s
(DOT&E’s) LFT&E oversight of the HMMWV Program.

Planning and Execution of Up-Armored HMMWV Live Fire Test and
Evaluation was Effective for the Portions Completed
ATEC’s live fire testing of the up-armored HMMWV was effective for the portions completed.
Specifically, ATEC planned a live fire test strategy for the HMMWV Program that identified
required documents needed to determine system and crew survivability. ATEC provided the
required live planning documents to the Office of the DOT&E for approval and ATEC executed
tests in accordance with the approved live fire test plans. ATEC has not yet completed the up-
armored HMMWV LFT&E report but will provide it, upon completion, for DOT&E’s evaluation
of the up-armored HMMWV LFT&E.

Fragment-Simulating Projectiles
Data collected by the U.S Army Aberdeen Test Center and the U.S. Army Research Laboratory
(ARL) revealed that the tactic of employing artillery shells as surface-laid IEDs, as opposed to an
airburst detonation, resulted in an increase in the number of the bigger fragments threatening a
vehicle. An ARL representative stated that the 20mm FSP represents the 97th percentile of
fragments, by mass, from a surface-laid 152mm artillery shell detonation. Based on ARL’s test
data, we confirmed that the 20mm FSP represents the 97th percentile of fragments, by mass, from
a surface-laid 152mm artillery shell detonation. The Army used a combination of FSP tests,
full-up system level vulnerability tests,2 and modeling and simulation3 to determine the
up-armored HMMWV’s capabilities and limitations against surface-laid artillery shell-based IED
threats and other threats.

Explosive Equivalency
An ATEC representative stated that, from May 2004 to November 2006, ATEC used the C-4
explosive conversion as a substitute for a TNT mine explosive when performing underbody tests
2
  Full-up system level vulnerability tests are tests conducted on a complete system loaded or equipped with all the
dangerous materials that normally would be on board in combat (including flammables and explosives) and with all
critical subsystems operating that could make a difference in determining the test outcome. These tests use
munitions likely to be encountered in combat.
3
  We did not evaluate the models or simulations the Army uses in the live fire test and evaluation process.

                                                         2

of the HMMWV variants. ATEC used C-4 to support the HMMWV requirement to provide
underbody protection against mine blasts to the HMMWV variants. The C-4 conversion used by
ATEC created smaller sized craters during the test events than the crater sizes created by TNT
mines in theater. ATEC representatives stated that they used the C-4 explosive substitute
because it was the best they could do at the time. Although ATEC incorrectly used C-4 as an
explosive equivalent to TNT when performing underbody mine testing, the TNT mine weight
requirement in the September 2004 HMMWV Operational Requirements Document was less
than two-thirds of the mine explosive weight experienced in theater operations.

By 2008, ATEC changed the testing methodology from using the C-4 explosive equivalent as a
substitute for the TNT underbody mine threat to using a cast TNT mine. ARL developed cast
TNT mines as threat surrogates for the actual mine. As documented in its live fire test planning
documents, ATEC plans to use an approved threat surrogate during live fire testing instead of the
C-4 explosive conversion in its underbody mine blast testing.

Soil Testing
An ARL representative stated that he discussed with officials from Developmental Test
Command4 the possibility of conducting a study to determine whether test procedures in a new
soil would be repeatable. He stated that ARL can complete this type of study. Further, the
representative stated that current tests conducted in consistent soil retain a 10 to 25 percent
variability in blast effect from shot to shot. ARL is also in the process of developing a
comparison of the different types of soil that range from dense, saturated clay to loose, sifted
sand. From this comparison study, ARL is working on a rough conversion factor that would
allow testers to take real observed test results done in one soil condition and use that data to
estimate probable results of the same test as if it had been done in another soil type. Results of
tests would still need to be compared to older vehicle tests done in the current standard test soil.

A representative from the U.S. Army Corps of Engineers Engineer Research Development
Center provided a 2009 report which examined the detonation of explosives in soil. He also
stated that the Center is in the process of conducting a soil study that will focus on the tactical
implications of differences in soil conditions. The study will identify how soil conditions affect
ground radar used in IED detection systems and how the depth of an IED affected the blast to
vehicle underbellies. The U.S. Army Corps of Engineers Engineer Research Development
Center surveyed 10 to 11 sites, and the United Kingdom team members are gathering data from
5 additional sites.

Effective Oversight by the Director, Operational Test and Evaluation
Oversight
The Office of the DOT&E’s LFT&E oversight of the Army’s up-armored HMMWV was
effective for the portions of the oversight process completed. The up-armored HMMWV was
added to the Office of the Secretary of Defense Test and Evaluation Oversight List in 2006, and
the vehicle remained under DOT&E oversight for live fire testing in 2010. DOT&E reviewed
and approved up-armored HMMWV test planning documents, as required. As a part of its

4
 Developmental Test Command is a part of ATEC and is responsible for planning, conducting, and reporting
developmental tests.

                                                      3

assessment of the survivability of the up-armored HMMWV, DOT&E originally planned to use
ATEC’s HMMWV Live Fire Report. However, on April 23, 2010, DOT&E issued a
memorandum to the Service test community stating that DOT&E will publish an independent
report before the completion of the test agency report, if necessary to ensure the timely reporting
of operational and live fire test results. Therefore, DOT&E will start its assessment of
the survivability of the up-armored HMMWV whether or not ATEC has provided its HMMWV
LFT&E report. The Director, Live Fire Test and Evaluation, stated that DOT&E will publish a
HMMWV LFT&E report by the end of 2010.




                                                 4

Appendix. Scope and Methodology
We conducted this performance audit from October 2009 through October 2010 in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

The objectives of the audit were to determine whether the Army effectively planned, executed,
and evaluated HMMWV live fire testing and whether the DOD exercised adequate live fire
testing oversight of the Army’s HMMWV Program.

In our review, we included the HMMWV variants that were part of the Office of the Secretary of
Defense Test and Evaluation Oversight List from 2006 to 2010. The HMMWV variants on the
Oversight List consisted of the M1151 family of vehicles.‫٭‬

We did not include the Next Generation Expanded Capacity Vehicle, or ECV2, in our review of
DOD’s live fire testing oversight of the HMMWV Program. The Army considered the Next
Generation Expanded Capacity Vehicle as a part of the HMMWV Program and merely an
upgrade to the existing HMMWV. Therefore, DOT&E listed the Next Generation Expanded
Capacity Vehicle as “HMMWV ECV2” on its Office of the Secretary of Defense Test and
Evaluation Oversight List. However, as discussed in DOD IG Report No. D-2010-039,
“Recapitalization and Acquisition of Light Tactical Wheeled Vehicles,” we do not agree that the
Next Generation Expanded Capacity Vehicle is a HMMWV because it had less than 30 percent
of parts in common with the Expanded Capacity Vehicle-model HMMWV and would be built on
a separate production line.

To accomplish the objectives of the audit, we reviewed the Office of the Secretary of Defense
Test and Evaluation Oversight Lists from 2006 through 2010; live fire test planning documents,
such as the HMMWV Live Fire Test and Evaluation Strategy, Detailed Test Plan, Event Design
Plan, and Pre-Shot Prediction Report; the HMMWV Operational Requirements Document; and
various DOD studies and reports from January 1973 through March 2010.

We contacted staff in the Offices of the Director, Operational Test and Evaluation; Joint
Improvised Explosive Device Defeat Organization; U.S. Army Test and Evaluation Command;
and U.S. Army Research Laboratory.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.




‫٭‬
    The HMMWV M1151 family of vehicles includes the M1151, M1152, and the M1165.

                                                    5

Use of Technical Assistance
The Technical Assessment Directorate, Office of the Deputy Inspector General for Policy and
Oversight, assisted the audit team by analyzing data related to the U.S. Army Test and
Evaluation Command testing methodologies used during the live fire test and evaluation of the
HMMWV Program.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the DOD IG, and the 

Army Audit Agency have issued eight reports discussing the HMMWV; add-on armor for 

tactical wheeled vehicles; production, delivery, and installation of truck armor; tactical wheeled 

vehicle strategies; and recapitalization and acquisition of light tactical wheeled vehicles. 


Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov. Unrestricted 

DOD IG reports can be accessed at http://www.dodig.mil/audit/reports. 

Unrestricted Army reports can be accessed from .mil and gao.gov domains over the Internet at 

https://www.aaa.army.mil/. 


GAO 
GAO Report No. GAO-06-274, “Defense Logistics: Lack of a Synchronized Approach between
the Marine Corps and Army Affected the Timely Production and Installation of Marine Corps
Truck Armor,” June 22, 2006

GAO Report No. GAO-06-160, “Defense Logistics: Several Factors Limited the Production and
Installation of Army Truck Armor during Current Wartime Operations,” March 22, 2006

DOD IG 
DOD IG Report No. D-2010-039, “Recapitalization and Acquisition of Light Tactical Wheeled
Vehicles,” January 29, 2010

DOD IG Report No. D-2009-046, “Procurement and Delivery of Joint Service Armor Protected
Vehicles,” January 29, 2009

DOD IG Report No. D-2009-030, “Marine Corps Implementation of the Urgent Universal Needs
Process for Mine Resistant Ambush Protected Vehicles,” December 8, 2008

DOD IG Report No. D-2008-089, “Planning Armor Requirements for the Family of Medium
Tactical Vehicles,” May 9, 2008

DOD IG Report No. D-2007-107, “Procurement Policy for Armored Vehicles,” June 27, 2007

Army
Army Audit Agency Report No. A-2007-0234-ALM, “Tactical Wheeled Vehicle Strategy,
Deputy Chief of Staff G-8 and Program Executive Office Combat Support and Combat Service
Support,” September 26, 2007



                                                 6

